No. 20-820
In the

Supreme Court of the United States
DENISE JACKSON,
Petitioner,
v.
WELLS FARGO HOME MORTGAGE,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION

C. Neil Gray
Counsel of Record
Reed Smith LLP
599 Lexington Avenue
New York, New York 10022
(212) 521-5400
cgray@reedsmith.com
Counsel for Respondent

300895

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether the United States Court of Appeals for the
Second Circuit correctly affirmed the District Court’s
dismissal of Petitioner’s Amended Complaint alleging
violations of the Fair Housing Act, 42 U.S.C. §§ 3601,
et seq.; 42 U.S.C. § 1981; Title VI of the Civil Rights
Act of 1964, 42 U.S.C. § 2000d; the Equal Protection
Clause of the Fourteenth Amendment to the U.S.
Constitution; and state law.

2.

Whether the United States Court of Appeals for the
Second Circuit correctly affirmed the District Court’s
finding that granting Petitioner leave to file a second
Amended Complaint would be futile.

ii
PARTIES TO THE PROCEEDING
The Petitioner is Denise Jackson and the Respondent
is Wells Fargo Home Mortgage.

iii
RULE 29.6 CORPORATE DISCLOSURES
Wells Fargo Home Mortgage is a division of Wells
Fargo Bank, N.A. and 100 percent of the stock of Wells
Fargo Bank, N.A. is owned, directly and indirectly, by
Wells Fargo & Company, a publicly held corporation.
Wells Fargo & Company has no parent corporation, and no
publicly held corporation owns 10% or more of Wells Fargo
& Company’s stock. Wells Fargo Bank, N.A.’s parent
corporation is WFC Holdings, LLC, and WFC Holdings,
LLC is a privately held corporation that owns 10% or more
of Wells Fargo Bank, N.A.’s stock; and WFC Holdings,
LLC’s parent corporation is Wells Fargo & Company, and
Wells Fargo & Company is a publicly held corporation that
is the Managing Member of WFC Holdings, LLC.

iv
RELATED PROCEEDINGS
Cases related to this proceeding are:
• Jackson v. Wells Fargo Home Mortgage, No. 15-cv5062, U. S. District Court for the Eastern District
of New York. Judgment entered March 28, 2019.
• Jackson v. Wells Fargo Home Mortgage, No. 191446, U. S. Court of Appeals for the Second Circuit.
Judgment entered July 21, 2020.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RULE 29.6 CORPORATE DISCLOSURES . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
I.

Statement of the Facts  . . . . . . . . . . . . . . . . . . . . . 4
a.

Procedural History  . . . . . . . . . . . . . . . . . . . . 4

b.

T he A l leg at ions of Pet it ioner ’s
Amended Complaint  . . . . . . . . . . . . . . . . . . . 6

c.

The District Court’s Dismissal of
the Amended Complaint . . . . . . . . . . . . . . . 11

d.

The Second Circuit’s Affirmance of
the Dismissal  . . . . . . . . . . . . . . . . . . . . . . . . 13

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

vi
Table of Contents
Page
I.

Jackson Has Not Met the Criteria for a
Grant of Certiorari . . . . . . . . . . . . . . . . . . . . . . . . 15

II. The Second Circuit Properly Affirmed the
Dismissal of the Civil Rights Claims . . . . . . . . . 20
a.

Jackson’s Fair Housing Act Claim . . . . . . . 21

b.

Jackson’s Section 1981 and Title VI
Claims  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

c.

Jackson’s Equal Protection Clause
Claim . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

III. The Second Circuit Properly Affirmed the
Denial of Leave to Further Amend.  . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
TABLE OF CITED AUTHORITIES
Page
FEDERAL CASES
Ashcroft v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 12, 19
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Boddie v. Schneider,
105 F.3d 857 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 20
Boykin v. KeyCorp,
521 F. 3d 202 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . 12
Braxton v. United States,
500 U.S. 344 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Brown v. Chase Bank,
2013 WL 5537302 (E.D.N.Y. Oct. 7, 2013)  . . . . . . . . 22
Chavis v. Chappius,
618 F.3d 162 (2d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 20
Cuoco v. Moritsugu,
222 F. 3d 99 (2d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 15
DeSouza v. Park W. Apts., Inc.,
2018 WL 2990099 (D. Conn. June 14, 2018) . . . . . . . 22
Dettelis v. Sharbaugh,
919 F. 3d 161 (2d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 14

viii
Cited Authorities
Page
Fabrikant v. French,
691 F.3d 193 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . 22
Hayden v. Cnty. of Nassau,
180 F.3d 42 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . 23
Leogrande v. New York,
2013 WL 1283392 (E.D.N.Y. Mar. 29, 2013) . . . . . . . 20
McCarthy v. Dun & Bradstreet Corp.,
482 F.3d 184 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . 8, 23
Mitchell v. Shane,
350 F.3d 39 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . 21
Premium Mortg. Corp. v, Equifax, Inc.,
583 F.3d 103 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 14
Saidin v. N.Y.C. Dep’t of Educ.
498 F. Supp. 2d 683 (S.D.N.Y. 2007) . . . . . . . . . . . . . 20
Secard v. Wells Fargo Bank, N.A.,
2015 WL 6442563 (E.D.N.Y. Sept. 9, 2015) . . . . . . . 22
Tolbert v. Queens Coll.,
242 F.3d 58 (2d Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . 22
Triestman v. Fed. Bureau of Prisons,
470 F.3d 471 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 20

ix
Cited Authorities
Page
FEDERAL STATUTES
42 U.S.C. § 1981  . . . . . . . . . . . . . . . . . . . . . . . . 4, 11, 13, 21
42 U.S.C. § 2000a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
42 U.S.C. § 2000d . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 3605 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
STATEMENT OF THE CASE
On August 27, 2015, Petitioner Denise Jackson
(“Petitioner” or “Jackson”), appearing pro se, filed a
Complaint (“Initial Complaint”) in the United States
District Court for the Eastern District of New York
against Wells Fargo Home Mortgage1 alleging civil rights
violations in connection with Petitioner’s unsuccessful
attempts to refinance and/or modify her home mortgage
in 2012, 2013 and 2014. Petitioner’s allegations of
discrimination were based on her status as African
American; her general, unsupported, allegations that she
was “qualified” for the refinance/modifications sought; and
her unsupported assertion that everyone in charge of her
various loan applications, none of whom are identified,
was purportedly white. Petitioner did not allege, even
in conclusory fashion, that the refinance/modifications
denied to her were available to others similarly qualified
but of different races, much less offer factual allegations
in support.
Following Wells Fargo’s motion to dismiss the Initial
Complaint, Petitioner’s federal claims were dismissed,
in part on statute of limitations grounds, and otherwise
for failure to state a cause of action, with the District
Court declining to hear her state law claims. Petitioner
thereafter filed an Amended Complaint, which the District
Court also dismissed on the same grounds. Jackson
appealed the latter dismissal to the Second Circuit, which
affirmed the District Court’s judgment of dismissal,
1. In 1998, Wells Fargo Home Mortgage merged into and
is now a division of Wells Fargo Bank, N.A. (hereinafter, “Wells
Fargo”).

2
finding that “even under the liberal pleadings standard
afforded pro se litigants, the Amended Complaint failed to
allege a plausible violation of federal law,” and that leave
to amend a second time would have been “futile.”
Specifically, as detailed below, the Second Circuit
found Jackson “failed to state a claim (of discrimination)
because she failed to plausibly allege that Wells Fargo
denied her application based upon race or color,” and
that “(the) allegations are simply not enough to support
Jackson’s conclusory and speculative assertion that she was
targeted on the basis of her race.” Jackson subsequently
moved before the Second Circuit to reconsider the Second
Circuit’s affirmance, which was denied. The instant
Petition for Writ of Certiorari followed.
Significantly, as detailed below, annexed to Petitioner’s
Amended Complaint (and, thus, incorporated therein by
reference) were documents demonstrating legitimate, nonrace-based reasons for denying Petitioner a refinance or
modification and that Petitioner was unqualified to receive
the loans for which she applied. Petitioner never addressed
this lack of qualification and, in fact, seemingly conceded
in her own submissions when she stated that it took 98%
of her income to meet her present loan obligations, and,
therefore, making it impossible for her to have met a 31%
or even a 40% debt-to-income threshold even at a reduced
interest rate under a refinance.
Additionally, though not specifically addressed by the
Second Circuit, Petitioner’s claims as they relate to her 2012
application were dismissed as time-barred, as Jackson had
only two years after the alleged discriminatory practice
to bring a civil rights claim and the action herein was

3
commenced in 2015. 2 These substantive defects rendered
dismissal proper and a second amendment futile, as both
the District Court and Second Circuit properly held.
Now, in seeking review of the Second Circuit’s opinion
affirming the District Court’s dismissal with prejudice of
her Amended Complaint, Petitioner has not identified any
basis for this Court’s review, nor has she articulated any
public interest or important federal question that requires
this Court’s consideration. The principal purpose for
certiorari review “is to resolve conflicts among the United
States courts of appeals and state courts concerning
the meaning of provisions of federal law,” a purpose not
implicated by this Petition. See Braxton v. United States,
500 U.S. 344, 347 (1991) (citing Supreme Court Rule 10.1,
now Supreme Court Rule 10(a)).
As detailed below, Jackson seemingly argues that
a “split” among state and federal courts exists because
Wells Fargo and other banks “win” some litigations and
“lose” others, without identifying those cases or even
whether they relate to comparable discrimination claims.
Much of the Petition is instead devoted to attacks by
Petitioner on her appellate counsel, or to other issues
entirely irrelevant to the disposition of her Petition. Those
include purported procedural issues at the District Court
prior to its hearing and determination of the motion to
2. In her Petition, Jackson seems to mistakenly believe that
the statute of limitations is measured from the time the motion
to dismiss the Amended Complaint was decided by the District
Court, rather than by commencement of the action and, therefore,
seemingly asserts that the District Court caused the statute of
limitations to run with respect to her claims as to her 2012 loan
refinance efforts.

4
dismiss the initial Complaint, rather than the motion as
to the Amended Complaint that was the subject of the
appeal at issue.
Accordingly, the Petition for Writ of Certiorari should
be denied.
I.

Statement of the Facts

As noted above, this is a Petition for a Writ of
Certiorari following the Second Circuit’s affirmance of the
District Court’s dismissal with prejudice of Petitioner’s
Amended Complaint based on the District Court’s
determination that—like Jackson’s previously dismissed
Initial Complaint—the Amended Complaint asserted
partially time-barred claims and otherwise failed to state
a valid claim for relief.
a.

Procedural History

Jackson commenced the action herein on August
27, 2015, alleg ing “[a] civil r ights violation” and
“discr imination” based on Wells Fargo’s alleged
“unfair lending practices” in connection with Jackson’s
loan refinance and modification efforts. 3 In her Initial
Complaint, Jackson purported to assert claims under the
Equal Protection Clause of the Fourteenth Amendment of
the U.S. Constitution; 42 U.S.C. 3605 (the “Fair Housing
Act” or “FHA”); 42 U.S.C. 1981 (“Section 1981”); 42 U.S.C.
3. On September 1, 2006, Jackson executed the relevant
mortgage (the “Mortgage”), secured by property located at 215
Maple Street, Brooklyn, New York, for $334,950, payable to First
Republic Mortgage Bankers, Inc. (“Republic Bank”).

5
2000d (“Title VI of the Civil Rights Act of 1964” or “Title
VI”); and 42 U.S.C. 2000a. (A. 99). 4
Wells Fargo timely appeared on October 14, 2015 by
requesting a pre-motion conference in contemplation of
a motion to dismiss Jackson’s Initial Complaint. (A. 73).
After the District Court granted Wells Fargo’s request
to make this motion at the pre-motion conference, Wells
Fargo moved to dismiss Jackson’s Initial Complaint
pursuant to Rule 12(b)(6). (A. 71).
By Report and Recommendation dated January 19,
2017, Magistrate Judge Steven L. Tiscione recommended
that the District Court grant Wells Fargo’s motion to
dismiss. (A. 12). However, particularly in light of Jackson’s
pro se status, the Magistrate recommended that Jackson
be granted leave to amend her Initial Complaint “so that
she may have the opportunity to correct its myriad of
defects and to expound upon its conclusory allegations.”
(Id.).
After receiving two extensions from the Court,
Jackson filed an amended complaint on May 16, 2017 (A.
25) and, on June 6, 2017, filed an “Addendum,” consisting
of various documents (A. 36), which, together, comprise
Jackson’s Amended Complaint.
Wells Fargo thereafter requested a pre-motion
conference in contemplation of a motion to dismiss
Jackson’s Amended Complaint. The District Court
granted Wells Fargo leave to proceed with its motion.
(A. 73).
4. Citations to the Joint Appendix before the Second Circuit
are cited herein as “(A.___).”

6
By Report and Recommendation (the “Report”)
dated August 10, 2018, Magistrate Judge Tiscione again
recommended that the District Court grant Wells Fargo’s
motion, and that leave to file a second amended complaint
would be futile. (A. 127). Jackson served objections to
the Report. (A. 156). By Memorandum and Order dated
August 30, 2019, the District Court dismissed the action
finding “no merit to Jackson’s objections and no error in
the Report and Recommendation.” (A. 211).
Upon Jackson’s appeal, the Second Circuit, by
Summary Order dated April 24, 2020, affirmed the
District Court’s judgment of dismissal, holding that
“even under the liberal pleadings standard afforded pro
se litigants, the Amended Complaint failed to allege a
plausible violation of federal law,” and that leave to amend
a second time would have been “futile.” Specifically, the
Second Circuit found Jackson “failed to state a claim (of
discrimination) because she failed to plausibly allege that
Wells Fargo denied her application based upon race or
color” and that “(the) allegations are simply not enough
to support Jackson’s conclusory and speculative assertion
that she was targeted on the basis of her race.”5
The instant Petition for Writ of Certiorari ensued.
b.

The Allegations of Petitioner’s Amended
Complaint

Jackson, an African-American woman, alleged civil
rights violations in connection with her three unsuccessful
5. As noted above, Petitioner subsequently moved before the
Second Circuit to reconsider the Second Circuit’s affirmance, which
was denied by Order dated July 14, 2020.

7
attempts to refinance or modify her existing home mortgage
loan with Wells Fargo. (A. 25, 36). The only factual basis
alleged for her discrimination claims was that “I am
African American,” that she “qualified” for the refinance/
modification attempts, and that “[e]very person that had
authority over my loan application was white, everyone I
spoke to who had authority over my loan request was white.”
(A. 25).6 Again, Jackson failed to identify any such person,
how she communicated with them or upon what basis she
concluded they were white, given that Petitioner alleged
no in-person communications in connection with any of the
refinance/modification attempts.
More specifically, Jackson alleged that in 2012 she
requested a loan modification from Wells Fargo, but was
denied, and instead, was “offered” a streamline refinance.7
(A. 25). Jackson alleged that although she was “approved”
for this refinance, Wells Fargo refused to close on the
loan.” (Id.). Notably, the “approval” upon which Jackson
relies specifically stated, inter alia, that “your final
approval is not guaranteed” and the loan approval “may be
subject to re-qualification based on additional qualification
or additional loan requirements.” (A. 60).
6. Notably, these are the same civil rights violations alleged
in Jackson’s Initial Complaint, in addition to her prior claims of
fraud, deceptive business practices and breach of contract under
state law, which were not subsequently referenced in the Amended
Complaint. (A. 99).
7. It should be noted that Jackson was initially approved for
the refinance in 2012 and subsequently found not to be qualified
in 2013 because the “streamline modification” initially set to
close in 2012 did not require a review of Petitioner’s financial
circumstances. Only the pre-closing determination that Jackson
was in default in her escrow account and her inability to cure that
default prevented the 2012 “streamline modification.” (A. 193).

8
Moreover, also annexed by Petitioner and incorporated
by reference to the Amended Complaint 8 was a “resolution
letter” (“Resolution Letter”) from Wells Fargo explaining,
inter alia, why Wells Fargo ultimately denied Jackson’s
streamline refinance application in June 2012, after
initially issuing a conditional approval. (A. 193). 9 As
Wells Fargo explained in the Resolution Letter, nearly
$6,000 was due and owing on Jackson’s existing loan
based upon an escrow account shortage and late fees.
(Id.). Because Jackson did not have sufficient funds to pay
these charges—and these charges could not be included
in the refinanced loan amount—Wells Fargo denied her
application. (Id.). Notably, Jackson, despite her claims of
“qualification,” never disputed her inability to pay these
charges in 2012 or alleged facts to the contrary.10
8. See e.g. McCarthy v. Dun & Bradstreet Corp., 482 F.3d
184 (2d Cir. 2007).
9. The Resolution Letter attached by Jackson to her
Amended Complaint was transmitted by Wells Fargo to respond
to certain concerns raised by Jackson, including with respect
to her refinance/modification applications in 2012 and 2013, and
therefore referenced Jackson’s failure to qualify for them. (Id.) The
Resolution Letter also referenced Wells Fargo’s offer for her to
re-apply for a refinance in 2014. (Id.). Petitioner seemingly argues
that the invitation to apply amounted to loan approval, though
Petitioner does not even allege she provided financial information
and/or demonstrated her loan qualification in connection with
that 2014 application. Indeed, as noted above, Petitioner’s own
submissions indicated she could in no way afford the refinance.
(A. 163).
10. Although Jackson did not make this argument to the
Second Circuit or submit these documents to the District Court,
she attaches documents to her Petition (see Appendix D, Exhibit
J) that seemingly purport to belatedly dispute her lack of

9
Jackson next alleged that in 2013 she again applied
for a loan modification with Wells Fargo. (A. 25). Jackson
alleged that, although she was “qualified,” Wells Fargo
denied a modification because “[s]he could not afford [her]
house.” (Id.). Petitioner offered no factual allegations
to support her purported qualification. However, the
Resolution Letter, submitted by Petitioner with her
pleadings, also explained why Wells Fargo was unable
to offer Jackson a loan modification in July 2013—to wit,
because “in accordance with program guidelines,” to
qualify for a modification, the post-modification payment
must be within 40% of Jackson’s monthly income, and
that Wells Fargo was unable to create a post-modification
payment within that range. (A. 193). Jackson, despite her
claim of “qualification,” never disputed that calculation or
alleged any facts to the contrary.11
Jackson next alleged that, in 2014, she again applied
for a refinance, pursuant to the invitation made in the
Resolution Letter from Wells Fargo. (A. 25). Jackson
claimed that although she was “qualified” and was
qualification for the 2012 loan, notwithstanding that such claim
was properly rejected as time-barred. Regardless, documents
that reference the loan escrow balance in 2014 are irrelevant to
the issue of the escrow default and Petitioner’s inability to close
in 2012, an issue that Petitioner had multiple opportunities to
address below but failed to do.
11. Indeed, Jackson seemingly concedes—despite her
conclusory claim of “qualification”—that her loan payment
exhausted nearly her entire income. (A. 156, at p. 8). It should
be noted that Jackson now attaches a “HAMP letter” (Appendix
D, Exhibit E), which is likewise simply an invitation to apply, as
“evidence” of her qualification in 2013—a document that in any
event was never submitted to the District Court at any point.

10
specifically invited to re-apply, Wells Fargo again refused
to “close.” (A. 193). However, the Resolution Letter
highlighted that, in order to reapply, Jackson would need
to submit a new financial application to allow Wells Fargo
“to determine the loan terms for which you may qualify”
and that “[e]ligibility is subject to current underwriting
and investor guidelines.” (Id.). Again, despite her
conclusory allegations of “qualification,” Jackson did not
allege that she even submitted a financial application or
that she demonstrated eligibility. Jackson also failed to
allege any change of circumstances from 2013 when Wells
Fargo found that no affordable modification could be
provided and Jackson seemingly conceded such. (A. 163).
Jackson simply equates an invitation to reapply in 2014
with “qualification.”
Finally, Jackson alleged that Wells Fargo colluded
with non-party Republic Bank (the originating lender) “in
the unlawful practice of redlining.” (A. 25). According to
Jackson, “Wells Fargo concealed the fact that Republic
Bank owned my mortgage from 2006-2016.” (Id.).12 But
Jackson failed to allege what concealment occurred or any
factual allegations as to “redlining” by either Wells Fargo
(which preliminarily approved her for the 2012 refinance,
for which Petitioner was unable to close, and reviewed or
offered to review her again twice afterwards) or Republic
(which undeniably made the initial loan to Jackson).
12. Although not necessary for the disposition of this Petition
or to the previous appeal or underlying motions, Wells Fargo, not
Republic Bank, owned the loan at all relevant times. Petitioner is
likely making this misstatement because the mortgage was not
assigned to Wells Fargo until 2016. (A. 127).

11
Based on these allegations, Jackson asserted causes
of action under the Equal Protection Clause, the Fair
Housing Act, Section 1981, Title VI, and New York General
Business Law 349, as well as common law causes of action
for fraud and breach of contract. (A. 25). Jackson sought
monetary damages of $20 million, “removal of all negative
information reported to all credit agencies regarding [her]
mortgage payment history,” and to have “all attorn[eys]
and court fees paid by the defendants in the event this
goes to trial.” (Id.).
c.

The District Court’s Dismissal of the Amended
Complaint

Wells Fargo moved to dismiss the Amended Complaint.
After the Magistrate Judge’s Report, and an objection by
Petitioner that amounted to another amendment of the
already amended pleading (A. 127, 156), the District Court
dismissed the Amended Complaint. (A. 211).
The District Court first upheld the Magistrate
Judge’s conclusion that the statute of limitations barred
Jackson’s FHA claim with respect to her 2012 refinance
attempt, rejecting Jackson’s argument that the 2014
denial extended the statute of limitations on such claim
because the 2012, 2013 and 2014 denials were “separate
and discrete events.” (Id.) The District Court then found
the Report also correctly concluded that the FHA claims
failed to state a claim:
[A]lthough Plaintiff alleged that she “qualified
for, met the terms and conditions, was eligible
for, and met all requirements of the loans
that [she] requested and applied for”… [the

12
Magistrate Judge] did not err in concluding
that these allegations constituted “formulaic
recitations of the elements of a cause of action”
that “will not do.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (quotation omitted). As the Report
observed, the amended complaint incorporates
a Resolution Letter that plainly indicates that
Plaintiff did not meet the income-to-debt ratio
required for her 2013 loan and was unable to
pay the fees required for her 2012 loan.
(Id.). The District Court further noted that:
Plaintiff does not adequately allege that the
housing opportunity she was denied remained
available to other renters or purchasers….
Although Plaintiff need not plead discriminatory
animus on the part of Defendant to state an
FHA claim, she must nevertheless allege facts
showing that Defendant treated her “differently
from similarly situated [individuals] not in
the protected [racial] class[], despite her
qualifications for the loan[s], because of her
race.” Boykin v. KeyCorp, 521 F. 3d 202, 206
(2d Cir. 2008) (quotation omitted).
(Id.).
As to the Section 1981 claim, the District Court held
that, again, Jackson’s claims were premised on nothing
more than “conclusory allegations” of discrimination,
and adopted the Magistrate’s recommendation to dismiss
this claim. (Id.). Petitioner’s Equal Protection claim was
likewise rejected because, inter alia, Wells Fargo was a
“private entity” and not a “state actor.” (Id.).

13
After demurring to exercise supplemental jurisdiction
as to Jackson’s state law claims, the District Court
declined to allow Jackson a further amendment, agreeing
with the Magistrate Judge’s conclusion that despite having
had “multiple opportunities” to allege sufficient facts,
“Plaintiff’s allegations of discriminatory intent, deceptive
practices, and fraud still lack any factual basis and are
purely conjectural.” (Id.).
d.

The Second Circuit’s Affirmance of the
Dismissal

The Second Circuit affirmed the District Court’s
dismissal of the Amended Complaint and the denial of
any further amendment by Petitioner.
In its de novo review of the Amended Complaint and
the District Court’s denial of further leave to amend, and
reading the pro se pleading liberally, the Second Circuit
held that:
We affirm the judgment of dismissal because
even under the liberal pleadings standard
afforded pro se litigants, the [A mended
Complaint] failed to allege a plausible violation
of federal law. We further conclude that the
district court did not err in denying Jackson
leave to amend [ ] for a second time because
amendment would have been futile.
(Appendix A). After reciting the applicable standards of
law for Jackson’s FHA, Section 1981 and Title VI claims,
the Second Circuit held that:

14
We need not decide whether the district court
applied the proper pleading standard because
we conclude, based on our independent review
of the pleading, that the [Amended Complaint]
failed to allege a plausible violation of federal
law regardless. See Dettelis v. Sharbaugh, 919
F. 3d 161, 163 (2d Cir. 2019) (“We may affirm on
any ground that finds support in the record.”).
(Id.). Specifically, the Second Circuit held that:
Jackson failed to state a claim under the FHA,
Section 1981, or Title VI because she failed to
plausibly allege that Wells Fargo denied her
application based on her race or color. The
sole allegations of racial discrimination in
the [Amended Complaint] were that Jackson
is A frican-A merican, she qualified for a
mortgage refinancing, her applications were
denied, and all the decision makers at Wells
Fargo were white…. These allegations are
simply not enough to suppor t Jackson’s
conclusory and speculative assertion that she
was targeted on the basis of her race. See
Premium Mortg. Corp. v, Equifax, Inc., 583
F.3d 103, 108 (2d Cir. 2009) (affirming dismissal
of claim where the ‘complaint present[ed] only
conclusory allegations…and we find them
facially implausible.’).
(Id.).
With respect to further amendment, the Second
Circuit concluded:

15
Here, Jackson was already g ranted one
unsuccessful opportunity to amend her pleading
with the court below, and on her counseled
appeal she identifies no new facts that would
cure the [Amended Complaint’s] deficiencies.
The district court thus rightly concluded that
granting leave to amend was futile. See Cuoco
v. Moritsugu, 222 F. 3d 99, 112 (2d Cir. 2000).
(Id.).
ARGUMENT
I.

Jackson Has Not Met the Criteria for a Grant of
Certiorari

As detailed below, nothing in the Petition meets the
criteria set forth in Supreme Court Rule 10. The Second
Circuit, in affirming the dismissal of the Amended
Complaint here, did not “[enter] a decision in conflict with
the decision of another United States court of appeals
on the same important matter, . . . [decide] an important
federal question in a way that conflicts with a decision
by a state court of last resort; or . . . so far [depart] from
the accepted and usual course of judicial proceedings, or
[sanction] such a departure by a lower court, as to call for
an exercise of this Court’s supervisory power.” Supreme
Court Rule 10(a).
As noted above, the entirety of Petitioner’s argument
with respect to a purported circuit “conflict” is Petitioner’s
contention that “Wells Fargo and other banks” win some

16
cases and lose others.13 Petitioner does not identify those
cases, or even whether they relate to the discrimination
claims raised by Petitioner herein. In fact, there is no
actual conflict here as to the applicable law or standard
of review.
Nor is there any need for the exercise of the Court’s
supervisory power. Jackson was afforded an opportunity
by the District Court to amend her initial Complaint and
annexed documentary support to her Amended Complaint.
(A. 25). Jackson then provided additional documentary
evidence, whatever the value, in opposition to the Report.
(A. 156). Notwithstanding these opportunities, Jackson
failed to demonstrate in any way a plausible discrimination
claim.
Instead, Jackson undermined her already conclusory
claims by effectively confirming that she lacked the
“qualification” for the loans sought, including failing to
dispute the grounds upon which the 2012 and 2013 loans
were denied. Moreover, Jackson conceded that paying
her loan required virtually all of her income, making it
impossible to reach a 31% or 40% debt-to-income ratio (A.
25, 156, at p. 8) (referring to the payment amounting to
“98%” of her income).
Indeed, much of Jackson’s Petition is devoted to
matters entirely irrelevant to a grant of certiorari.
Jackson’s attacks on the counsel that handled her
underlying appeal, and the attorney that handled her
13. Petitioner’s submission does not include page numbers
but this argument is made on page 1 of the section of her Petition
entitled “Reason for Granting Petition.”

17
subsequent appellate motion practice, have no bearing
on the grant of certiorari. Jackson’s grievances with
both counsel—that they purportedly omitted certain
documents from the Appendix below—only demonstrates
Jackson’s fundamental misunderstanding of the nature of
an appeal and the record upon which that appeal may be
based. The documents Jackson contends were “missing”
were appropriately excluded from the Appendix because
the documents in question were either submitted by
Petitioner solely in connection with Wells Fargo’s motion
to dismiss Jackson’s Initial Complaint—not the motion
to dismiss Jackson’s Amended Complaint—or not at all
(or, in some instances were included in the Appendix,
contrary to Jackson’s claim that they were “missing.”).
Jackson also misunderstands the clear meaning of the
documents she claims were missing from the Appendix,
whether properly before the Second Circuit or not.
Jackson’s reliance on a “HAMP letter” as demonstrating
her qualification for the loan sought in 2013 (Appendix
D, Ex. E)—which was, in fact, part of the Second Circuit
record (A. 56)—is only a form letter reflecting the ability
to apply for a HAMP loan.
Similarly, Jackson attempts now to rely on documents
appropriately outside the appellate record, having never
been submitted to the District Court, as “evidence” of
her qualification for the 2012 refinance, but points only to
documents from 2014 (Appendix D, Ex. J) that can shed
no light on the status of her escrow account in 2012.14
14. Petitioner also devotes much time to complaining about
purported due process violations during the pre-motion conference
held in connection with the motion to dismiss her Initial Complaint,

18
In addition, Petitioner has neither argued nor
demonstrated (and, indeed, could not demonstrate) that
the Second Circuit decided an “important question of
federal law that has not been, but should be, settled by this
Court, or . . . an important federal question in a way that
conflicts with relevant decisions of this Court.” Supreme
Court Rule 10(c). Instead, the Second Circuit, in its de
novo review, acted consistent with well-settled law in
affirming the well-reasoned opinion of the District Court’s
dismissal of Jackson’s Amended Complaint. Jackson,
again, offers no argument to the contrary.
At most, Jackson makes passing reference to
being denied “constitutional protections,” seemingly a
reference to her complaints that she was not given notice
of a conference prior to the motion to dismiss the Initial
Complaint. However, Jackson does not dispute that she
received notice of and opposed both that motion to dismiss
and the subsequent motion to dismiss the Amended
Complaint.
In su m, not h i ng herei n mer it s t h is Cou r t ’s
extraordinary review of the Second Circuit’s routine
affirmance of the District Court’s dismissal for failure
to state a claim following the application of well-settled
federal law.
and alleges that the District Court “tampered” with documents
Jackson submitted. Beyond the fact that the appeal herein is the
appeal of the dismissal of the subsequent Amended Complaint,
Petitioner indisputably had the opportunity and exercised the
opportunity to oppose both motions, including by submitting
additional documentary evidence in opposition to the Magistrate
Judge’s Report for the dismissal of the Amended Complaint (A.
156). None of that is in dispute.

19
More specifically, it can hardly be disputed that upon
a motion to dismiss, as here, a court must determine
whether a complaint states a legally cognizable claim
by making allegations that, if true, would show that the
plaintiff is entitled to relief. Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009).
Rule 8 of the Federal Rules of Civil Procedure does
not require detailed factual allegations, but “[a] pleading
that offers ‘labels and conclusions’ or ‘formulaic recitation
of the elements of a cause of action will not do.’ Nor does
a complaint suffice if it tenders ‘naked assertion[s]’ devoid
of ‘further factual enhancement.’” Iqbal, 556 U.S. at 678
(quoting Twombly, 550 U.S. at 555, 557). A complaint may
plausibly entitle a plaintiff to relief when there is “factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct
alleged.” Id. (citing Twombly, 550 U.S. at 556).
There are “[t]wo working principles” that guide
analysis of a motion to dismiss: “First, the court must
accept all factual allegations as true and draw all
reasonable inferences in favor of the non-moving party,”
and “[s]econd, only a complaint that states a plausible
claim for relief survives a motion to dismiss, and this
determination is a context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 678, 679.
Although complaints drafted by pro se plaintiffs, such
as Jackson, are held “to less stringent standards than

20
formal pleadings drafted by lawyers,” Boddie v. Schneider,
105 F.3d 857 (2d Cir. 1997), and are interpreted “to raise
the strongest arguments they suggest,” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 472 (2d Cir. 2006),
“pro se status does not relieve a plaintiff of the pleading
standards otherwise prescribed by the Federal Rules of
Civil Procedure.” Saidin v. N.Y.C. Dep’t of Educ., 498 F.
Supp. 2d 683 (S.D.N.Y. 2007).
Although “[a] pro se complaint ‘should not [be]
dismissed without [the Court] granting leave to amend at
least once when a liberal reading of the complaint gives
any indication that a valid claim might be stated’” Chavis
v. Chappius, 618 F.3d 162, 170 (2d Cir. 2010), “leave to
re-plead can be denied where it is clear no amendments
can cure the pleading deficiencies and any attempt to
replead could be futile.” Leogrande v. New York, 2013 WL
1283392, at *15 (E.D.N.Y. Mar. 29, 2013).
Here, the Second Circuit correctly held that Jackson’s
Amended Complaint failed to meet even these relaxed
standards.
II. The Second Circuit Properly Affirmed the Dismissal
of the Civil Rights Claims
The Second Circuit properly affirmed the District
Court’s dismissal of Jackson’s unsupported civil rights
claims under the FHA, Title VI and the Equal Protection
Clause.

21
a.

Jackson’s Fair Housing Act Claim

Putting aside whether the claims with respect to
the 2012 FHA claim were time-barred, the Second
Circuit correctly held that Jackson’s FHA claim must be
dismissed for failure to state a claim. (A. 222). Under the
FHA, to state a claim of housing discrimination, a plaintiff
must show: (1) that she is a member of a protected class;
(2) that she sought and was qualified to rent or purchase
the housing, (3) that she was rejected; and (4) that the
housing opportunity remained available to other renters
or purchasers. Mitchell v. Shane, 350 F.3d 39, 47 (2d Cir.
2003). Both the District Court and the Second Circuit
correctly held that Jackson’s FHA claim was insufficiently
pled and conclusory.
A lthough Jackson was not requi red to plead
discriminatory animus on the part of Wells Fargo to
state an FHA claim, she must nevertheless allege facts
showing that Wells Fargo treated her differently from
similarly situated individuals not in the protected racial
class, despite that she was qualified for the loans, and that
the disparate treatment was because of her race. This she
failed to do, or even attempt. Jackson fails to show that
either the District Court or the Second Circuit applied the
wrong standard or arrived at an inaccurate conclusion,
much less that a different result would have occurred in
a different Circuit.
b.

Jackson’s Section 1981 and Title VI Claims

The Second Circuit also properly affirmed the
dismissal of Jackson’s unsupported Section 1981 and Title
VI Claims.

22
In order to state a claim under either of these
statutes, “the plaintiff must show, inter alia, that the
defendant discriminated against [her] on the basis of
race, that that discrimination was intentional, and that
the discrimination was a substantial or motivating factor
for the defendant’s actions.” Tolbert v. Queens Coll., 242
F.3d 58, 69 (2d Cir. 2001). Jackson does not dispute the
application of this standard, or that, as the District Court
noted, the standard for liability under these statutes is
more exacting than the standard required to sustain an
FHA claim. Jackson fails to demonstrate in any way any
conflict over the use or application of this standard among
the Circuit courts or even demonstrate how this standard
was incorrectly applied to her herein.
c.

Jackson’s Equal Protection Clause Claim

Equal Protection claims may only be brought against
state actors. A “private entity” like Wells Fargo “does not
become a state actor for purposes of § 1983 merely on the
basis of the private entity’s creation, funding, licensing,
or regulation by the government.” Fabrikant v. French,
691 F.3d 193, 207 (2d Cir. 2012). “Rather, there must be
such a close nexus between the [s]tate and the challenged
action that the state is responsible for the specific conduct
of which the plaintiff complains.” Id. (internal quotations
omitted). Courts routinely consider mortgage lenders like
Wells Fargo to be private entities in the context of claims
like the Equal Protection claim initiated by Jackson. See,
e.g., DeSouza v. Park W. Apts., Inc., No. 15-CV-1668, 2018
WL 2990099, at *16 (D. Conn. June 14, 2018); Secard v.
Wells Fargo Bank, N.A., No. 15-cv-499, 2015 WL 6442563,
at *3 (E.D.N.Y. Sept. 9, 2015); Brown v. Chase Bank, No.
13-CV-5309, 2013 WL 5537302, at *2 (E.D.N.Y. Oct. 17,

23
2013). Petitioner does not address, much less challenge,
any of this in her Petition. The Second Circuit’s conclusion
was clearly correct.
III. The Second Circuit Properly Affirmed the Denial
of Leave to Further Amend.
“Although Rule 15(a) of the Federal Rules of Civil
Procedure provides that leave to amend shall be freely
given when justice so requires, it is within the sound
discretion of the district court to grant or deny leave to
amend.” McCarthy v. Dun & Bradstreet Corp., 482 F.3d
184, 200 (2d Cir. 2007). “[W]here the plaintiff is unable
to demonstrate that [s]he would be able to amend [her]
complaint in a manner which would survive dismissal,
opportunity to replead is rightfully denied.” Hayden v.
Cnty. of Nassau, 180 F.3d 42, 53 (2d Cir. 1999).
Here, the Amended Complaint, and the documents
submitted by Jackson purportedly in support thereof,
demonstrated the futility of allowing any further
pleading. The flaws in Jackson’s claims are not the result
of unartful pleading. Rather, they are the consequence
of the underlying facts, and it cannot be disputed that
Jackson was unable to articulate any additional facts that
might have aided her claims even when represented on
appeal by counsel. Jackson could only recite the bare legal
standards of the statutes upon which she relies because
there is nothing to support her claims of discrimination—
assertions of her race and the denials, without more,
simply do not suffice. Jackson could not show she was
discriminated against because the truth is that she was
demonstrably and concededly not qualified for the loans
she sought, much less that similarly unqualified people
of different races were treated differently than she was.

24
CONCLUSION
The District Court’s ruling below dismissing the
Petitioner’s Amended Complaint and denying leave to
amend for a second time was entirely proper, particularly
where Petitioner’s objection to the Magistrate Judge’s
Report and Recommendation in essence operated as
a second, meritless amendment. The Second Circuit’s
Opinion affirming the ruling of the District Court was
well-supported by the record and legal precedent. Nothing
in Jackson’s Petition implicates any of the considerations
for certiorari review set forth in Supreme Court Rule
10. This case simply does not present a novel or pressing
issue worthy of this Court’s consideration. As such, Wells
Fargo respectfully requests that the Petition for Writ of
Certiorari be denied.
January 19, 2021
				Respectfully submitted,
C. Neil Gray
Counsel of Record
Reed Smith LLP
599 Lexington Avenue
New York, New York 10022
(212) 521-5400
cgray@reedsmith.com
Counsel for Respondent

